<html>
<title> - HEARING ON WORKER-MANAGEMENT RELATIONS: EXAMINING THE NEED TO MODERNIZE FEDERAL LABOR LAW</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                HEARING ON WORKER-MANAGEMENT RELATIONS:
                    EXAMINING THE NEED TO MODERNIZE
                           FEDERAL LABOR LAW

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTH,
                    EMPLOYMENT, LABOR, AND PENSIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 26, 2018

                               __________

                           Serial No. 115-42

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


           Available via the World Wide Web: www.govinfo.gov
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-829 PDF             WASHINGTON : 2018                 
 
 
 
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Elise Stefanik, New York             Mark Takano, California
Rick W. Allen, Georgia               Alma S. Adams, North Carolina
Jason Lewis, Minnesota               Mark DeSaulnier, California
Francis Rooney, Florida              Donald Norcross, New Jersey
Tom Garrett, Jr., Virginia           Lisa Blunt Rochester, Delaware
Lloyd K. Smucker, Pennsylvania       Raja Krishnamoorthi, Illinois
A. Drew Ferguson, IV, Georgia        Carol Shea-Porter, New Hampshire
Ron Estes, Kansas                    Adriano Espaillat, New York
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS

                    TIM WALBERG, Michigan, Chairman

Joe Wilson, South Carolina           Gregorio Kilili Camacho Sablan,
David P. Roe, Tennessee                Northern Mariana Islands
Todd Rokita, Indiana                   Ranking Member
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Rick W. Allen, Georgia               Donald Norcross, New Jersey
Jason Lewis, Minnesota               Lisa Blunt Rochester, Delaware
Francis Rooney, Florida              Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia        Joe Courtney, Connecticut
Ron Estes, Kansas                    Marcia L. Fudge, Ohio
                                     Suzanne Bonamici, Oregon
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 26, 2018...................................     1

Statement of Members:
    Sablan, Hon. Gregorio Kilili Camacho, Ranking Member, a 
      Representative in Congress from the Northern Mariana 
      Islands....................................................     4
        Prepared statement of....................................    33
    Walberg, Hon. Tim, Chairman, Subcommittee on Health, 
      Employment, Labor, and Pensions............................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Bowman, Mr. Terry, CEO, Autoworker, Ypsilanti, MI............    68
        Prepared statement of....................................    70
    Jackson, Mr. Tommy, Long Haul Auto-Transport Driver, 
      Hermiston, OR..............................................    43
        Prepared statement of....................................    45
    Lofaso, Dr. Anne M., Arthur B. Hodges Professor of Law, West 
      Virginia University College of Law, Morgantown, WV.........    50
        Prepared statement of....................................    53
    Marculewicz, Mr. Stefan J., Shareholder, Lettler Mendelson 
      P.C., Washington, DC.......................................    35
        Prepared statement of....................................    38

Additional Submissions:
    Rooney, Hon. Francis, a Representative in Congress from the 
      State of Florida:
        Report: Worker Centers: Union Front Groups and the Law...   124
    Mr. Sablan:
        Letter dated February 9, 2018, from the National Labor 
          Relations Board (NLRB).................................     7
        Letter dated March 20, 2018, from the National Labor 
          Relations Board (NLRB).................................    14
        Article: Dysfunction and Infighting Cripple Labor Agency.    26
    Scott, Hon. Robert C. ``Bobby'', a Representative in Congress 
      from the State of Virginia:
        Letter dated February 23, 2018, from Mr. Scott...........    85
        Letter dated February 21, 2018, from the National Labor 
          Relations Board (NLRB).................................    87
        Letter dated March 27, 2018, from the National Labor 
          Relations Board (NLRB).................................   104


                      HEARING ON WORKER-MANAGEMENT

                     RELATIONS: EXAMINING THE NEED 
                     
                     TO MODERNIZE FEDERAL LABOR LAW

                              ----------                              


                        Thursday, April 26, 2018

                       House of Representatives,

        Subcommittee on Health, Employment, Labor, and Pensions,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:33 a.m. in 
Room 2175 Rayburn House Office Building, Hon. Tim Walberg 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Walberg, Wilson of South Carolina, 
Roe, Allen, Lewis, Rooney, Smucker, Foxx; Sablan, Norcross, 
Shea-Porter, Espaillat, Courtney, Bonamici, and Scott.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; Michael Comer, Press Secretary; Rob 
Green, Director of Workforce Policy; Callie Harman, 
Professional Staff Member; Nancy Locke, Chief Clerk; Geoffrey 
MacLeay, Professional Staff Member; John Martin, Workforce 
Policy Counsel; Kelley McNabb, Communications Director; James 
Mullen, Director of Information Technology; Krisann Pearce, 
General Counsel; Benjamin Ridder, Legislative Assistant; Molly 
McLaughlin Salmi, Deputy Director of Workforce Policy; Olivia 
Voslow, Legislative Assistant; Joseph Wheeler, Professional 
Staff Member; Lauren Williams, Professional Staff Member; and 
Michael Woeste, Deputy Press Secretary; Tylease Alli, Minority 
Clerk/Intern and Fellow Coordinator; Kyle deCant, Minority 
Labor Policy Counsel; Andre Lindsay, Minority Staff Assistant; 
Kevin McDermott, Minority Senior Labor Policy Advisor; Richard 
Miller, Minority Director of Labor Policy; Veronique Pluvoise, 
Minority Staff Director; and Kimberly Toots, Minority Labor 
Policy Fellow.
    Chairman Walberg. A quorum being present, the Subcommittee 
on Health, Employment, Labor, and Pensions will come to order.
    Good morning, and welcome to today's Subcommittee hearing. 
I would like to thank our panel of witnesses and our members 
for joining today's important discussion.
    Today, we will examine the need to modernize certain 
federal workplace laws, including updates to policies within 
the National Labor Relations Act to strengthen the rights of 
workers to make free and informed decisions about whether they 
want to join or remain associated with a union.
    We will also look at issues surrounding worker centers, and 
whether they are complying with relevant statues under the 
Labor-Management Reporting and Disclosure Act, LMRDA, and if 
not, what updates need to be made in order to ensure 
transparency and accountability.
    Worker centers were designed to be a resource in low-income 
communities. However, current ambiguities in the law have 
allowed them to engage in direct negotiations with employers on 
behalf of employees. The insufficient reporting standards 
currently in place limit the amount of information available to 
the Department of Labor and the public on just how many of 
these organizations currently exist and the types of activities 
they engage in with employers and employees.
    Enacted in 1935--that is before I was born; I want you to 
know that.
    [Laughter.]
    Chairman Walberg. I would ask my colleagues to help me out 
on that one. Long before, okay.
    The NLRA guarantees most private-sector employees the right 
to organize and bargain collectively with their employers 
through representatives of their choosing, or to simply refrain 
from such activities. While this remains the mission of the 
NLRA, the law is showing its age. Many of the law's key 
provisions have not been updated since 1947, and it may be time 
to revisit the law to meet the needs of our 21st century 
workforce.
    Additionally, the National Labor Relations Board, created 
through the NLRA, was designed to act as a neutral arbitrator 
to ensure a level playing field between employers and union 
leaders, but that hasn't been the case in recent years. But 
more importantly, the NLRA and NLRB were designed to protect 
the right of workers to make fully informed decisions about 
whether they want to join a union.
    In this hearing we will also explore how union dues are 
being used for political activities that may not align with the 
beliefs of its members. We will further examine situations 
where employees are not afforded the protection of the secret 
ballot. Congress has an obligation to examine how laws can be 
modernized in order to restore and uphold the rights of all of 
its workers.
    I look forward to hearing from the witnesses on how we can 
ensure freedom of choice, restore balance and fairness, and 
help create an environment where workers and businesses can 
thrive.
    [The statement of Chairman Walberg follows:]

   Prepared Statement of Hon. Tim Walberg, Chairman, Subcommittee on 
                Health, Employment, Labor, and Pensions

    Good morning, and welcome to today's subcommittee hearing. I would 
like to thank our panel of witnesses and our members for joining 
today's important discussion.
    Today we will examine the need to modernize certain federal 
workplace laws, including updates to policies within the National Labor 
Relations Act (NLRA) to strengthen the rights of workers to make free 
and informed decisions about whether they want to join or remain 
associated with a union.
    We will also look at issues surrounding worker centers, and whether 
they are complying with relevant statues under the Labor-Management 
Reporting and Disclosure Act (LMRDA) and if not, what updates need to 
be made in order to ensure transparency and accountability.
    Worker centers were designed to be a resource in low-income 
communities; however, current ambiguities in the law have allowed them 
to engage in direct negotiations with employers of behalf of employees. 
The insufficient reporting standards currently in place limit the 
amount of information available to the Department of Labor and the 
public on just how many of these organizations currently exist and the 
types of activities they engage in with employers and employees.
    Enacted in 1935, the NLRA guarantees most private sector employees 
the right to organize and bargain collectively with their employers 
through representatives of their choosing, or to simply refrain from 
such activities. While this remains the mission of the NLRA, the law is 
showing its age. Many of the law's key provisions
    have not been updated since 1947, and it may be time to revisit the 
law to meet the needs of our 21st century workforce.
    Additionally, the National Labor Relations Board--created through 
the NLRA--was designed to act as a neutral arbitrator to ensure a level 
playing field between employers and union leaders, but that hasn't been 
the case in recent years. But more importantly, the NLRA and NLRB were 
designed to protect the right of workers to make fully informed 
decisions about whether they want to join a union
    In this hearing, we will also explore how union dues are being used 
for political activities that may not align with the beliefs of its 
members. We will further examine situations where employees are not 
afforded the protection of the secret ballot.
    Congress has an obligation to examine how laws can be modernized in 
order to restore and uphold the rights of all workers.
    I look forward to hearing from the witnesses on how we can ensure 
freedom of choice, restore balance and fairness, and help create an 
environment where workers and businesses can thrive.
                                 ______
                                 
    Chairman Walberg. Before I yield to Ranking Member Sablan 
for his opening remarks, I want to yield first to Chairwoman 
Foxx.
    Mrs. Foxx. Thank you, Chairman Walberg. I want to take just 
a moment to honor and to thank Molly Salmi during what will be 
her last hearing here with us at the Education and Workforce 
Committee.
    Molly began her congressional career as a staff assistant 
on the Committee in the 100th Congress. And for those of you 
who don't know, we are in the 115th right now. For the past 16 
years, she has been deputy director of workforce development. 
Next week, she will close out nearly three decades of service 
here.
    Eight Committee chairs, Republican and Democrats, have had 
the benefit of Molly's guidance, direction, and honest 
feedback. Here at the Committee, as all the members know, our 
policy staff is split between the education issues and the 
workforce issues. Molly may be the longest-serving member of 
the Committee's workforce staff, but she has the heart of an 
educator.
    Many years ago, Molly established herself as mentor to 
young staff members who have gone on to have some remarkable 
careers. She took the time to really invest in her colleagues. 
And those of us sitting here on this dais have been the 
beneficiaries of that effort.
    As an educator myself, I can tell you that Molly makes that 
kind of one-on-one teaching look easy. It isn't always easy, 
but she has truly set a standard, and she is leaving a legacy.
    Molly, on behalf of all the members of this committee, 
thank you. Thank you for understanding and demonstrating what 
servant leadership can look like, and thank you for giving us 
so many years.
    [Applause.]
    Mr. Scott. Will the gentlelady yield?
    Mrs. Foxx. I will yield after I make one more quick 
comment, and that is we want to wish you a happy birthday on 
Monday.
    I yield.
    Mr. Scott. Thank you. Thank you very much.
    Mr. Chair, I want to recognize the hard work of Molly 
Salmi, too, for 29 years of dedicated service to the House 
Committee on Education and the Workforce. As it has been 
pointed out, she joined us as staff assistant and advanced over 
the years to serve as deputy director of workforce policy. She 
has been an informed advisor, a consummate professional, and 
has earned the trust and respect of all of the members and 
staff of this committee. That is no small feat in a time when 
politics in our society has become so polarized.
    So, on behalf of the members of the Committee and staff on 
this side of the aisle, I want to thank her for her public 
service and wish her the best of luck in her future endeavors, 
and let her know that she will be missed.
    Thank you. And, Madam Chair, I appreciate the birthday 
greetings. Thank you.
    Mrs. Foxx. I yield back, Mr. Chairman.
    Chairman Walberg. I thank the Chairwoman and the Ranking 
Member. And happy birthday as well.
    I first met Molly when I came here as a freshman on this 
committee back in 2007, and then had the great fortune to have 
her work me into a subcommittee chairmanship of Workforce 
Protections. And I have had the privilege since then to work 
with her in this subcommittee, as well.
    I have always, Molly, seen you as one who was a stable 
force, not ruffled in any way, shape, or form, honest on the 
issues, and directing us in the best way possible. The only 
lack of integrity I have seen in you is saying that you have 
been here 30 years. I can't believe that. You have worn it 
well. And some of us haven't been so successful in doing that, 
but you have.
    You have been a kind force, you have understood all of the 
material needed, and you have made it much easier for us in 
working through difficult issues in the workforce area, and 
working, in many cases, in a bipartisan fashion to come up with 
solutions and ways to move forward.
    We wish you all the best. We know the reasons that you are 
leaving are of the highest priorities, and shows your 
commitment to do what is necessary to complete any task that 
you are given well. God bless you, and we wish you all the 
best.
    And now I yield to the Ranking Member for his opening 
remarks for today.
    Mr. Sablan. Yes, thank you very much, Mr. Chairman. And I 
also join you, Chairwoman Foxx and Ranking Member Scott.
    Molly, thank you very much for your service. And God bless 
you and godspeed on your--on wishing you every success in life. 
Thank you. I know you started here when you were less than 10 
years old.
    Mr. Chairman, thank you for holding this hearing today. The 
National Labor Relations Act protects, by law, the right of 
workers to form unions in order to rectify the inequality of 
bargaining power between employees and employers. However, the 
NLRA fails to enforce workers' rights with meaningful remedies. 
There are no civil penalties when employers violate workers' 
rights under the Act. Employers understand they can retaliate 
against workers for engaging in union activity with limited 
consequences. Often times the sole sanction is that the 
employer is ordered to post a notice stating it violated the 
law, or years later award back pay minus any interim earnings.
    Lacking a meaningful deterrent, there has been an 
intensification of aggressive, anti-union campaigns which, in 
turn, has contributed to the decline of union membership. This 
has exacerbated incoming inequality and contributed to wage 
stagnation for those in the middle, while serving as a boon for 
those in the top 10 percent.
    Post chart, please?
    [Chart]
    Mr. Sablan. Thank you. As you can see from the chart, as 
union membership has decreased from 27.1 percent to 11.1 
percent between 1973 and 2015, the share of income going to the 
top 10 percent has increased over that same time, from 31.9 
percent to 47.8 percent. Over the past four decades, wages for 
working people have stagnated.
    When union memberships hovered around 30 percent between 
the end of World War II and 1973--that was when Mr. Walberg was 
born, I think--wages grew over 90 percent. However, as union 
membership decreased all the way down to 10.7 percent in 2017, 
wages have only grown by 12.3 percent, adjusting for inflation.
    Safeguarding the right to join a union and negotiate for 
better wages and conditions is critical to reversing income 
inequality, growing the middle class, and making sure workers 
receive their fair share of the wealth that they create.
    To address the need to modernize labor law, my Democratic 
colleagues and I have cosponsored legislation that would do 
exactly that: H.R. 4548, the WAGE Act, protects the right to 
join a union by providing prompt and fair remedies to deter 
unfair labor practices.
    The WAGE Act would authorize meaningful sanctions for those 
who break the law. It prevents workers from being mis-
classified and denied their legal recourse. It facilitates 
disparate resolution procedures to enable employers and unions 
to conclude a first contract if workers choose to join a union.
    I would be remiss if I did not note the mismanagement and 
conflicts of interest that have affected decision-making at the 
National Labor Relations Board over the past six months. The 
board's mission under the NLRA is to protect workers' rights 
and promote collective bargaining.
    For example, prior to serving on the board, member William 
Emanuel was a law partner at Littler Mendelson, one of the 
largest management-side firms in the country. The firm 
represented a party in the Browning-Ferris joint employer case, 
which is currently before the D.C. Circuit.
    Member Emanuel voted to overturn Browning-Ferris in a case 
called Hy-Brand. Emanuel then voted to direct the general 
counsel to move the D.C. Circuit to remand Browning-Ferris back 
to the board.
    The NLRB's inspector general investigated and concluded 
that Member Emanuel violated his ethics pledge. The board's 
ethics official agreed. By voting when he should have recused 
himself, Emanuel undermined the due process rights of workers 
in both the Browning-Ferris and the Hy-Brand cases.
    Mr. Chairman, I ask unanimous consent to enter into the 
record the NLRB inspector general's notification of ``a serious 
and flagrant problem and/or deficiency,'' dated February 9th, 
and the report dated March 20.
    I also ask for unanimous consent to enter into the record 
an April 18th Politico article titled ``Dysfunction and 
Infighting Cripple Labor Agency.''
    Chairman Walberg. Without objection, and hearing none, it 
will be entered.
    [The information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      
    Mr. Sablan. Thank you. I am also concerned that the 
majority's legislative proposals will sabotage workers' rights 
to join together to improve wages and conditions.
    One proposal included in H.R. 2723, the misnamed ``Employee 
Rights Act,'' which this subcommittee heard in June, would 
prevent unions from effectively representing the workers by 
requiring unnecessary periodic re-certification elections, and 
would restrict union spending on advocacy and organizing, 
ignoring the union members already have the absolute right to 
opt out of allowing their dues to be spent on those purposes.
    Today the majority attacks worker centers, which are 
community-based, non-profit organizations of low-wage workers. 
They provide direct services and support such as legal 
assistance, English classes, and leadership development. They 
do not represent workers for collective bargaining purposes, 
and are not the exclusive representative of employees like 
unions are.
    Instead of recognizing the work of these not-for-profit 
organizations for assisting low-wage workers, the majority 
wants to handcuff this group by imposing burdensome reporting 
requirements designed for unions under the Labor Management 
Reporting and Disclosure Act. The square peg of the LMRDA does 
not fit into the round hole of worker centers.
    Before I conclude I want to thank each of the witnesses for 
taking the time to prepare their testimony and appear here 
today.
    I also want to wish a happy birthday to Ranking Member 
Scott. I was going to sing him a song, but my staff paid me a 
dollar not to do so.
    [Laughter.]
    Mr. Sablan. Thank you, and I yield back.
    [The statement of Mr. Sablan follows:]

  Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, Ranking 
    Member, Subcommittee on Health, Employment, Labor, and Pensions

    Chairman Walberg, thank you for holding this hearing today.
    The National Labor Relations Act protects, by law the right of 
workers to form unions in order to rectify the inequality of bargaining 
power between employees and employers.
    However, the NLRA fails to enforce workers' rights with meaningful 
remedies. There are no civil penalties when employers violate workers' 
rights under the Act. Employers understand can retaliate against 
workers for engaging in union activity with limited consequences--
oftentimes the sole sanction is that the employer is ordered to post a 
notice stating it violated the law or, years later, award backpay minus 
any interim earnings.
    Lacking a meaningful deterrent, there has been an intensification 
of aggressive anti-union campaigns, which, in turn, has contributed to 
the decline of union membership. This has exacerbated income inequality 
and contributed to wage stagnation for those in the middle, while 
serving as a boon for those in the top 10 percent.
    [post chart]
    As you can see from the chart, as union membership has decreased 
from 27.1 percent to 11.1 percent between 1973 and 2015, the share of 
income going to the top 10 percent has increased over that same time 
from 31.9 percent to 47.8 percent.
    Over the past 4 decades, wages for working people have stagnated. 
When union membership hovered around 30 percent between the end of 
World War II and 1973, wages grew over 90 percent. However, as union 
membership decreased all the way down to 10.7 percent in 2017, wages 
have only grown by 12.3 percent, adjusting for inflation.
    Safeguarding the right to join a union and negotiate for better 
wages and conditions is critical to reversing income inequality, 
growing the middle class, and making sure workers receive their fair 
share of the wealth that they create.
    To address the need to modernize labor law, my Democratic 
colleagues and I have cosponsored legislation that would do exactly 
that. H.R. 4548, The WAGE Act, protects the right to join a union by 
providing prompt and fair remedies to deter unfair labor practices.
    The WAGE Act would authorize meaningful sanctions for those who 
break the law. It prevents workers from being misclassified and denied 
their legal recourse. It facilitates dispute-resolution procedures to 
enable employers and unions to conclude a first contract, if workers 
choose to join a union.
    I would be remiss if I did not note the mismanagement and conflicts 
of interest that have infected decision-making at the National Labor 
Relations Board over the past 6 months. The Board's mission under the 
NLRA is to protect workers' rights and promote collective bargaining.
    For example, prior to serving on the Board, Member William Emanuel 
was a law partner at Littler Mendelson one of the largest management-
side firms in the country. The firm represented a party in the Browning 
Ferris joint employer case, which is currently before the D.C. Circuit.
    Member Emanuel voted to overturn Browning Ferris in a case called 
Hy-Brand. Emanuel then voted to direct the General Counsel to move the 
D.C. Circuit to remand Browning Ferris back to the Board.
    The NLRB's Inspector General investigated and concluded that Member 
Emanuel violated his ethics pledge. The Board's ethics official agreed. 
By voting when he should have recused himself, Emanuel undermined the 
due process rights of workers in both the Browning Ferris and Hy-Brand 
cases.
    Mr. Chairman, I ask unanimous consent to enter into the record the 
NLRB Inspector General's notification of ``a serious and flagrant 
problem and/or deficiency'' dated February 9, and the report dated 
March 20. I also ask for unanimous consent to enter into the record an 
April 18 Politico article titled ``Dysfunction and Infighting Cripple 
Labor Agency''.
    I am also concerned that the Majority's legislative proposals will 
sabotage workers' rights to join together to improve wages and 
conditions.
    One proposal, included in H.R. 2723, the misnamed ``Employee Rights 
Act,'' which this subcommittee heard in June, would prevent unions from 
effectively representing their workers by requiring unnecessary 
periodic re-certification elections and would restrict union spending 
on advocacy and organizing ignoring that union member already have the 
absolute right to opt out of allowing their dues to be spent on those 
purposes.
    Today, the majority attacks Worker Centers, which are community-
based, non-profit, organizations of low-wage workers. They provide 
direct services and support, such as legal assistance, English classes, 
and leadership development; they do not represent workers for 
collective bargaining purposes and are not the exclusive 
representatives of employees, like unions are.
    Instead of recognizing the work of these not-for-profit 
organizations for assisting low-wage workers, the Majority wants to 
handcuff these groups by imposing burdensome reporting requirements 
designed for unions under the Labor Management Reporting and Disclosure 
Act. The square peg of the LMRDA does not fit into the round hole of 
worker centers.
    Before I conclude, I want to thank each of the witnesses for taking 
the time to prepare their testimony and appear here today. I also want 
to wish a happy birthday to Ranking Member Scott.
    I yield back.
                                 ______
                                 
    Mr. Sablan. Thank you, Mr. Chairman.
    Chairman Walberg. Thank--I thank the gentleman, and I would 
pay you $2 to do it.
    [Laughter.]
    Chairman Walberg. Pursuant to Committee Rule 7(c), all 
members will be permitted to submit written statements to be 
included in the permanent hearing record. And without 
objection, the hearing record will remain open for 14 days to 
allow such statements and other extraneous material referenced 
during the hearing to be submitted for the official hearing 
record.
    And now it is my privilege to introduce the distinguished 
witnesses who have come to be here this morning.
    Mr. Stefan J. Marculewicz--I hope I got that right, or 
close--is a shareholder at Littler Mendelson, PC in Washington, 
D.C. Welcome.
    Mr. Tommy Jackson is a long-haul auto transport driver. If 
you came from Hermiston, Oregon, you are a long-haul witness 
today, as well. Thank you for being here.
    Dr. Anne Lofaso is the Arthur B. Hodges professor of law at 
the West Virginia University College of Law in Morgantown, West 
Virginia, and not new to this committee and the hearing 
process. Thank you for being here.
    Mr. Terry Bowman is an auto worker from Ypsilanti, 
Michigan. And Terry, just move a few miles, you could be in my 
district. Glad to have you here today.
    I will now ask our witnesses to raise your right hand to be 
sworn in.
    [Witnesses sworn.]
    Chairman Walberg. Thank you. Let the record reflect the 
witnesses answered all in the affirmative.
    Before I recognize you to provide your testimony, let me 
just briefly explain our lighting system. It is very simple. 
Like a traffic light, on green you have four minutes of 
testimony. When you see it turn yellow, you have another minute 
to end your statement. And when it is red, it is time to stop. 
Certainly finish your thought, but we will have opportunity to 
ask you questions, and we will have five minutes, each of us, 
to ask you questions, as well. And probably we will cover some 
of the things that you wanted to say anyway.
    We have your written testimony in a fuller format, as well, 
that will be part of the record.
    And so I recognize you now for your five minutes of 
testimony, Mr. Marculewicz.

   TESTIMONY OF STEFAN J. MARCULEWICZ, SHAREHOLDER, LITTLER 
                MENDELSON P.C., WASHINGTON, D.C.

    Mr. Marculewicz. Thank you, Chairman Walberg and Ranking 
Member Sablan, and the members of the Committee. Thank you for 
the opportunity to offer this testimony here today. My name is 
Stefan Marculewicz. I am a shareholder at the law firm of 
Littler Mendelson, here in Washington. I am speaking to you 
today on my own behalf, not on behalf of my law firm or any of 
my law firm's clients.
    The topic I am going to testify about today is worker 
centers. Labor unions, the primary advocates for worker rights 
in the United States, continue to experience a decline in 
membership. Perhaps, partially in response to that decline, 
labor unions have sought new ways to effectuate change in the 
workplace.
    One of the most prominent examples of that effort has been 
the development of organizations known as worker centers. 
Today, there are hundreds of these organizations. Their 
structure and composition vary. They go by very many different 
names. Typically, they are non-profit organizations that 
receive funding from foundations, grants--including government, 
membership fees and other donations, and some are funded by 
other labor organizations.
    These groups offer many different services to their 
members, including education, training, employment services, 
and legal advice. Increasingly, however, these organizations 
directly engage employers or groups of employers to effectuate 
change in the wages, hours, and terms and conditions of workers 
they claim to represent. When it comes to such direct 
engagement, these worker centers often act no differently than 
traditional labor organizations.
    In 2012, I conducted research on the subject of worker 
centers, and published the article ``Labor Organizations by 
Another Name: The Worker Center Movement and its Evolution into 
Coverage under the NLRA and LMRDA'' in Engage, the Federalist 
Society's law and policy review. In that article, I described 
the growth of worker centers and their evolution into de facto 
labor organizations. The premise of my article was that, 
because of this evolution, worker centers should comply with 
the laws that regulate labor organizations. These laws include 
the NLRA and the LMRDA. I asserted that because the benefits of 
those laws ultimately flow to the workers these organizations 
claim to represent, there was no viable justification for them 
not to comply with the laws.
    In September 2013, I had the honor of testifying on this 
subject before this committee. In my testimony, I urged the 
Committee to have these organizations comply with the laws. 
Unfortunately, since that time, to my knowledge, worker centers 
continue to remain largely outside of coverage by these laws.
    Instead of conforming their behavior to the existing laws, 
however, advocates are pursuing what appears to be a parallel 
track. For example, in at least one jurisdiction, New York 
City, the city council passed legislation allowing employees to 
make voluntary contributions to not-for-profit organizations of 
their choice through payroll deductions. This structure is very 
similar to the manner in which union dues are withheld from 
employee paychecks.
    In other situations, groups calling themselves global union 
federations that go by the names IndustriALL, UNI Global 
Unions, and BWI have become increasingly active in the United 
States on behalf of their U.S. member unions to further 
organizing efforts or create added leverage at the bargaining 
table. However, to my knowledge, none of these global union 
federations comply with the requirements of the LMRDA.
    Compliance with these laws would confer benefits upon the 
very workers these groups claim to represent. Unfortunately, it 
appears these groups are reluctant to define themselves as 
labor organizations because the NLRA and LMRDA are perceived as 
creating an impediment to worker centers' activities.
    In addition, worker centers have not considered themselves 
to be limited by the NLRA restrictions on secondary picketing 
and protracted picketing for recognition. Such conduct is a 
common tool used by these groups to convey their message, but 
it would violate the NLRA if they considered themselves labor 
organizations.
    Without coverage under the NLRA and the LMRDA, these 
organizations can avoid accountability to the workers they 
claim to represent. Yet the laws that provide protections for 
workers vis-a-vis labor organizations that represent them were 
designed precisely to create that accountability.
    Moreover, these laws were also intended to protect worker 
self-choice, and to ensure a balance between labor and 
management interests, and to ensure the free flow of commerce.
    The burden of compliance with those laws is not so 
significant when considered within the context of the benefits 
afforded to workers and the economy in general.
    The mission of many worker centers is often seen as being 
an important means of advocating on behalf of under-represented 
employees who do not have access to or knowledge of the legal 
mechanisms to protect their rights. However, no organization, 
no matter how laudable its mission, is above reproach. And 
through its passage of the laws that regulate labor 
organizations, Congress established safeguards to give workers 
a say in and understanding of the operations of the 
organizations that represent them.
    Compliance with the NLRA and the LMRDA serves not only as a 
protection for workers, but perhaps as a validator of the 
worker centers that claim to represent them. A goal of many 
worker centers is to ensure that employers of their members 
comply with the basic laws that offer protections to workers. 
It is not unreasonable to expect worker centers to do the same.
    Finally, I would like to point out that today, well into 
the second year of the Trump administration, the administrator 
position in charge of the Office of Labor Management Standards, 
or OLMS, which oversees compliance with the LMRDA, remains 
unfilled. And I would urge this committee to urge the 
administration to fill that position.
    Thank you very much for the opportunity to provide this 
testimony.
    [The testimony of Mr. Marculewicz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Walberg. Thank you for your testimony.
    Now, Mr. Jackson, I recognize you for five minutes. And 
this is a lot less challenging than traffic you deal with the 
drivers around you in your big rig.

 TESTIMONY OF TOMMY JACKSON, LONG HAUL AUTO-TRANSPORT DRIVER, 
                       HERMISTON, OREGON

    Mr. Jackson. Chairman Walberg, members of the Committee, 
thank you for allowing me a few minutes to tell my story, one 
of which is ongoing. It is my hope this testimony will bring 
awareness to a flawed system. My story will show the need to 
change labor laws to benefit employees and not special 
interests.
    Today, we are here to talk about how we can improve our 
current labor system and ensure unions are accountable to the 
employees they say they represent. All of you have been voted 
by your constituents to represent them here. Every two years 
they decide how you are doing in an election. And if you 
satisfy them, you get to come back. I am asking that labor 
unions be held to the same standard by making them have re-
certification elections. There should not be this ridiculous 
process that makes it nearly impossible to bring an election. 
It should be automatic, just like yours.
    It is further my hope that my testimony here today will 
call attention to the injustice that I and my co-workers are 
enduring at the hands of the National Labor Relations Board 
Region 19.
    My name is Tommy Jackson, and for 14 years I have been a 
truck driver for Selland Auto Transport. We specialize in 
moving new cars from the West Coast ports to market.
    On December 20, 2014, by a very narrow margin, the 
Teamsters were voted in to represent us. After a year-and-a-
half, we became disillusioned with Teamsters and began the 
process to bring forward a decertification election. This is 
not an easy process, because it is against the law for the 
company to help us, and the Teamsters say it would be in 
violation of their constitution.
    Remember, as truck drivers, we don't really congregate in 
any one place, and the National Labor Relations Board requires 
we have 30 percent minimum of my fellow drivers' signatures as 
a showing of interest. Even still, we got the required 
signatures and filed for a decertification election on March 2, 
2016. That was more than two years ago.
    The reasons for the delay, starting that very same day, 
March 2, 2016, the Teamsters began filing unfair labor 
practices, or ULPs, commonly known as blocking charges. By 
filing these blocking charges, the Teamsters can delay an 
election indefinitely. This is contrary to a representational 
election, where the union is trying to represent an employee 
group. I think they call those ambush elections, as they take 
place, on average, 24 days after the petition is filed.
    It is like the National Labor Relations Board is set up to 
force unions onto employees, but not let the same employees get 
the unions out. Case in point, going back to the blocking 
charges, the National Labor Relations Board Region 19 has 
jurisdiction of our case. The director of that region, Ronald 
Hooks, continually allows the union to rehash old blocking 
charges or file new ones that have no merit. We have sent the 
region multiple letters, begging the National Labor Relations 
Board to give us our election.
    Chairman Walberg and Committee, did you know that as Region 
19 processes the blocking charges that they hear the union's 
arguments and they hear from the company, however the region 
will not hear me, who is the actual petitioner for this de-
certification, as the board says I am not a recognized party. 
Therefore, I have no standing, me the petitioner, the one that 
took the risk.
    Furthermore, these delays are allowing the union to wage a 
campaign designed to browbeat my company into submission. The 
Teamsters called a one-day strike on November 21, 2015 that in 
turn resulted in my company losing its largest contract in 
California, American Honda. I think it is the Teamsters' goal 
at this point to put my company out of business.
    It is my understanding that this committee is considering 
legislation that requires unions to have re-certification 
elections. That would mean the unions would actually have to do 
their jobs and represent the real employees, instead of looking 
out for their own interests. And if they didn't, we would 
simply vote them out.
    Considering the runaround my company and colleagues have 
endured, an automatic election sounds like the American way.
    Thank you again, Mr. Chairman, Committee, for inviting me 
here to tell my story. I look forward to answering your 
questions.
    [The testimony of Mr. Jackson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mrs. Foxx. [Presiding] Thank you very much, Mr. Jackson.
    Now, Dr. Lofaso, you are recognized for five minutes.

TESTIMONY OF ANNE M. LOFASO, ARTHUR B. HODGES PROFESSOR OF LAW, 
   WEST VIRGINIA UNIVERSITY COLLEGE OF LAW, MORGANTOWN, WEST 
                            VIRGINIA

    Dr. Lofaso. Good morning, Chairman Walberg, who I don't see 
right now, Ranking Member Sablan, and distinguished members of 
the Subcommittee. My name is Anne Marie Lofaso. I am a law 
professor at West Virginia University, where I have taught 
labor and employment law for over 11 years, and serve as the 
director of the labor and employment law certificate program. I 
am also a former senior attorney at the National Labor 
Relations Board, where I served for 10 years in the Appellate 
and Supreme Court Branch.
    Thank you for inviting me to testify regarding worker-
management relations, examining the need to modernize federal 
labor law. I am testifying on behalf of myself, and not as part 
of these or any other institution with which I have been, may 
be, or will be affiliated.
    The National Labor Relations Act has not been meaningfully 
modernized since just after World War II. The last significant 
amendments, Taft-Hartley, have the eventual effect of 
substantially reducing union bargaining power and density, thus 
resulting in the type of imbalance that precipitated the 74th 
U.S. Congress to enact the NLRA in the first place.
    That congress understood that organized labor was necessary 
to check the coercive power of organized capital, and believed 
that protecting the fundamental rights of workers to band 
together for mutual aid or protection would diminish the causes 
of labor disputes, burdening or obstructing interstate and 
foreign commerce.
    Taft-Hartley's legacy, then, has been to amplify the 
imbalance of power between labor and management, augment 
economic inequality among workers, undermine the American 
middle class, and to sow the seeds of labor unrest and working 
class resentment. I therefore agree that the NLRB needs to be 
modernized.
    What is needed is the type of modernization established by 
the WAGE Act. The purpose of the WAGE Act is to strengthen 
unions so that they bolster the middle class, which will 
facilitate economic growth from the middle outward. The WAGE 
Act purports to do this in the following five ways.
    First, the WAGE Act requires employers to post notices of 
workers' NLRA rights. Publishing laws increases transparency, 
which creates, maintains, and builds the inner morality of the 
law. Moreover, it helps to educate and create an informed 
citizenry, a prerequisite for a strong democracy that can 
withstand foreign challenges to our political system.
    Second, the WAGE Act strengthens the NLRA's weak 
enforcement mechanisms by penalizing those who violate federal 
law.
    Third, and relatedly, the WAGE Act strengthens remedies for 
workers who are retaliated against for exercising their Section 
7 rights.
    Fourth, the WAGE Act expands coverage of the NLRA. The bill 
prevents employers from mis-classifying their employees as 
supervisors or independent contractors, and prevents workers 
from being denied back pay because of their immigration status.
    Fifth, the WAGE Act streamlines the process for workers to 
organize a union and negotiate a first contract, a proposal 
first endorsed by the Republican NLRB general counsel Rom 
Meisburg.
    By contrast, recent legislative proposals such as the 
inaptly named Employee Rights Act are headed in the wrong 
direction. These legislative measures, introduced in the name 
of workers' rights, would in reality continue the backward 
trend of squeezing the middle class. Together and separately, 
these bills craft eight steps toward destroying workplace 
democracy.
    One, the bills block employee access to information about 
the benefits of unionization.
    Two, they create anti-democratic voting measures cloaked in 
the language of democracy.
    Three, they eliminate the longest-standing and most basic 
way for workers to form unions by card check, while inventing 
creative ways for employers to bust unions.
    Four, the bills delay union certification.
    Five, they gerrymander voting districts by trying to compel 
the board to add employees who do not wish union representation 
to petition for bargaining units to create a majority non-union 
block.
    Six, they augment penalties for unions but not employers 
that violate the NLRA, notwithstanding the fact that unions are 
much less likely to violate the Act than are employers.
    Seven, they drain union treasuries.
    Eight, the bill grants non-union members control over 
unions.
    And nine, they create one-sided criminal penalties for 
unions, but not for managers or replacement workers to engage 
in or threaten violence.
    Finally, attacks on worker centers are erroneous and 
misplaced. Worker centers are community-based non-profit 
organizations that provide various services to low-wage workers 
in the communities they serve. Many but not all of these 
organizations center around immigrant groups who work in low-
wage jobs, thus shaping the types of services offered. Such 
services include English language classes, job readiness 
training and occupation safety training to community members, 
assistance applying for unemployment benefits or filing a claim 
for unpaid wages, or help opening bank accounts or obtaining 
loans.
    Worker centers are not labor organizations under the NLRA, 
or the Labor Management Reporting and Disclosure Act. Moreover, 
their growth is a symptom of diminished imbalanced bargaining 
power possessed by workers.
    In conclusion, the NLRA, a federal law that has not been 
significantly updated in over 70 years, is in desperate need of 
modernization. Legislative and administrative change is 
especially pressing because the imbalance of power created by 
Taft-Hartley has planted the seed that eventually deepened 
economic inequality, shrunk the middle class, and left many 
working-class people angry.
    As the 74th U.S. Congress well understood, that anger will 
predictably surface in various forms of labor and political 
unrest. Witness the swath of teacher strikes that swept our 
nation in recent months that started in my home state, West 
Virginia.
    I urge members of this Congress to reach across the aisle 
and work together on our nation's problems. Focus on people, 
rather than party loyalty. Focus on solutions, rather than 
ideology. Assume the best in one another, and we will keep our 
nation great.
    Thank you very much for the opportunity to provide this 
testimony.
    [The testimony of Dr. Lofaso follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Walberg. [Presiding] Thank you, Dr. Lofaso.
    And now I recognize Mr. Bowman for your five minutes of 
testimony.

   TESTIMONY OF TERRY BOWMAN, AUTOWORKER, YPSILANTI, MICHIGAN

    Mr. Bowman. Chairman Walberg, Ranking Member Sablan, and 
members of this committee, thank you for allowing me to testify 
today to discuss the plight of individual workers in the U.S. 
who are represented by a union, both voluntarily and those 
forced into it.
    We are speaking today on an issue that is very close to my 
heart: common-sense labor reform. My name is Terry Bowman, and 
I have worked for Ford Motor Company as an hourly employee for 
over 21 years, 19 of which I was a full, dues-paying UAW 
member. In 2015, I was able to exercise Michigan's workplace 
freedom law, and I withdrew my UAW membership. Today, however, 
I am still forced to accept the UAW representation.
    Unfortunately, unions are still stuck in a 1930s business 
model with compulsion as its core principle. Necessary labor 
reforms are required to bring unionism into the 21st century.
    Unlike many union executives, I believe granting union-
represented workers additional rights, freedoms, and 
protections is always a good thing. And two labor reforms I 
would like to briefly discuss today are worker political 
protections and the guarantee to a secret ballot election.
    Now, let's look at political protection. Unions represent 
workers on all sides of the political spectrum. We all know 
that. However, we also know that the vast majority of political 
spending by unions benefits one party, causing a forced speech 
situation. Why should any worker simply wanting to earn a 
living and provide for their family be forced to fund any 
political or social speech or activity that they disagree with?
    What workers need is to require unions to receive opt-in 
provisions and permission from each worker before they can use 
his or her union dues for purposes other than collective 
bargaining.
    Private-sector unions reported on their government LM-2 
forms that they spent over $1.7 billion on politics for the 
2016 election cycle. This does not include public-sector 
unions, so the actual figure is actually much higher.
    In addition, unions may spend much more than reported, due 
to inconsistencies in how they classify political or social 
activity. Categories such as education or community involvement 
may hide additional political activity, and of course grants 
and donations will also reflect political and social spending 
that may insult many union workers.
    Currently, labor law allows unions to deduct money for 
political spending from an employee's paycheck without 
obtaining prior approval. Only by initiating an often 
burdensome procedure or by resigning from a union can employees 
guarantee that their money will not support political agendas 
they disagree with. The process tends to be overly complicated, 
and rife with intimidation and fear: something I know about 
from personal experience. By simply requiring that union 
members opt in, rather than having to pursue a refund of dues 
or to opt out, employee rights will be better protected.
    And let's look at secret ballot elections. The very thought 
that we, as union workers, have to fight to make an argument 
for a secret ballot election is both outrageous and 
embarrassing. How could anyone ever deny a worker their right 
to privacy? This proposal is crucial to protecting a worker's 
right to vote their conscience without threatening and 
intimidating pressure from anyone, either a paid union 
organizer or an employer.
    Currently, unions can bypass secret ballot elections by 
persuading workers to sign card check agreements authorizing 
union representation. They then can pressure companies to 
accept that card check recognition, skipping a secret ballot 
election all together. Considering many workers may be confused 
about what those cards really represent, I believe it is time 
to assure workers forced into any union election that their 
privacy will be protected by guaranteeing a secret ballot 
election.
    Luckily, H.R. 2723, the Employee Rights Act, would address 
these concerns and more. Among eight pro-worker reforms, the 
Employee Rights Act would require secret ballot union 
elections, guaranteeing every employee's right to a private 
vote.
    The ERA would also require union officials to obtain opt-in 
approval from their members before spending their dues money on 
political advocacy. This would protect workers' paychecks from 
unapproved political spending. This legislation seems almost 
written by union workers for the benefit of union workers.
    I ask that you stand with me and my fellow union workers 
and support long-needed labor reform that will ensure our 
rights, freedoms, and protections, and will grant unions the 
tools necessary to shed their worn-out business model and meet 
us all here in the 21st century. Thank you.
    [The testimony of Mr. Bowman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Chairman Walberg. Thank you, Mr. Bowman, and thanks to each 
of the panel for your testimony and spending time with us.
    And now I recognize the chairwoman of the full Committee, 
Dr. Foxx from North Carolina.
    Mrs. Foxx. Thank you again, Chairman Walberg.
    Mr. Marculewicz. the Labor Management Reporting and 
Disclosure Act, or LMRDA, requires labor unions to disclose 
certain financial information. Often unionized workers are 
unaware of the financial dealings of their union without the 
important disclosures required under the LMRDA.
    If organizations known as worker centers are allowed to 
ignore the requirements of the LMRDA, could this create a 
situation where worker centers take advantage of workers?
    Mr. Marculewicz. Thank you, Chairwoman Foxx, for that very 
interesting question. I think it is--the LMRDA offers 
organizational accountability for members of labor 
organizations. Organizational accountability comes in the form 
of the worker bill of rights, which gives workers the right 
to--certain rights vis-a-vis the labor organizations that 
represent them.
    It also gives workers the right to have access to financial 
information related to how the labor organization is spending 
its money. And I think, as commented by Mr. Bowman in his 
testimony, political contributions and things of that nature 
are certainly of interest to some members, including Mr. 
Bowman, and I think that is a very critical thing for--that the 
LMRDA offers.
    I also would submit that there is organizational 
accountability. And I think when you come to the concept of 
worker centers, if a worker center is going to evolve into a 
role where it in fact seeks to engage an employer over wages, 
hours, and terms and conditions of employment, then those 
workers, those members, should have some say in that. And that 
is the democratic principle--those are the democratic 
principles that were established by the LMRDA, meaning that 
labor organizations must have elected officials, just as the 
National Labor Relations Act offers a democratic institution to 
enable workers to decide, by majority vote, whether or not they 
wish to have a labor organization serve as their exclusive 
representative.
    So it is beyond the financial accountability. I think it 
is--a critical component of this is if a worker center is going 
to engage an employer and serve in a role as an advocate for 
workers in a workplace as it relates to a particular employer, 
then that organizational accountability is critical.
    Mrs. Foxx. Thank you very much.
    Mr. Jackson, thank you for telling us your story. As you 
explained, when the two parties involved arguing before the 
NLRB are the employer and the union, you and your fellow 
employees are not even considered a party. Do you believe the 
National Labor Relations Act gives employees enough of a voice 
in this process? And in your experience, are most employees 
aware of their right to de-certify under the National Labor 
Relations Act?
    Mr. Jackson. Thank you, Chairman Foxx, or Committee Member 
Foxx, I am sorry--a little nervous.
    The NLRA, I don't believe, is--it is--in our workplace it 
is more geared towards unionization, or becoming union members, 
or union protectionism, not so much my choice for--not having 
to join, not having to support or removing myself as a union 
member.
    So no, I think it needs to go farther, it needs to be more 
clear, it needs to be more balanced.
    Mrs. Foxx. Thank you very much. And please don't be nervous 
with us.
    Mr. Bowman, you spoke about the importance of having secret 
ballot elections for union recognition, instead of a card check 
campaign. It is my understanding card check campaigns can only 
be carried out if an employer agrees to it. Do you think this 
creates an incentive where an employer and union can decide to 
agree to a deal over card check recognition at the expense of 
employees?
    Mr. Bowman. Well, that is interesting, isn't it? Because 
I--as workers, we would never know the actual case of what goes 
on behind closed doors. And, in my opinion, I think it is an 
example of why there should never be a case in a union 
organizing election why workers do not have a secret ballot 
election. We don't know. Perhaps it is honest, perhaps it is 
dishonest. We will never have any idea, one way or the other.
    What I do know is, in my 21 years, I have never had the 
opportunity to vote in a union election, and so I don't have 
that personal experience. But having the ability regardless of 
the situation to always have a secret ballot election almost 
seems germane to humanity. It seems a right that every worker 
should have, no matter the situation involved.
    Mrs. Foxx. Thank you, Mr. Chairman. I yield back.
    Chairman Walberg. I thank the gentlelady, and now I 
recognize the gentleman from Virginia, the ranking member of 
the full Committee, Mr. Scott.
    Mr. Scott. Thank you. Thank you, Mr. Chairman. Mr. 
Chairman, there is an important issue that is not being 
addressed at this hearing today, and that is the conflict of 
interest of the National Labor Relations Board. It is not on 
the agenda today, although I have asked for a hearing.
    On February the 15th, the inspector general for the NLRB 
issued a seven-day letter which reported a serious and flagrant 
problem and/or deficiency in the board's administration of its 
deliberative process in the National Labor Relations Act with 
respect to deliberations of a particular matter. That matter 
was NLRB board member William Emanuel's participation in the 
Hy-Brand decision, which overruled the board's joint employment 
decision in Browning-Ferris.
    Mr. Emanuel's former law firm represented one of the 
parties in Browning-Ferris, and the IG's letter concluded that 
the Hy-Brand and Browning-Ferris are the same ``particular 
matter involving specific parties,'' which implicated a 
conflict of interest.
    On February 21st an NLRB ethics official also agreed with 
the IG's opinion in these two matters, and in that memo she 
wrote, ``Pages 21-48 from the dissent in Browning-Ferris are 
reproduced almost word-for-word on pages 3-30 of the Hy-Brand 
majority decision. Thus, 27 of the 35 pages that constitute the 
decision of Hy-Brand majority were essentially lifted, with 
little or no modification, directly from the Browning-Ferris 
dissent.''
    This cut-and-paste job was an effort to use an unrelated 
matter to overturn a joint employer precedent, was rushed, it 
appears, because the former chairman's term was expired--was 
expiring, and he wanted to ensure his earlier dissent became 
the majority opinion.
    Mr. Chairman, I wrote the Chair requesting a hearing with 
the inspector general and board members to explore what went 
wrong and how to correct it. I have received no reply. So, Mr. 
Chairman, I would ask whether you would commit to holding a 
hearing on this matter in the foreseeable future, and I will 
yield.
    Chairman Walberg. I appreciate the request, and we will 
take it under advisement and consider that and get back with 
you.
    Mr. Scott. Mr. Chairman, I ask unanimous consent to insert 
my letter of February 23rd to the Chair and the NLRB's ethics 
official's memos of February 21st and March 27th of this year 
into the record.
    Chairman Walberg. Without objection, and hearing none, it 
will be inserted.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Scott. Thank you.
    Professor Lofaso, in your testimony, you state that in a 
post-Citizens United world, money is speech and legislation 
affirming--requiring affirmative annual authorization for the 
use of union dues for non-representative activities is designed 
to weaken unions.
    Could you state whether or not the--we should--whether or 
not corporate shareholders should have a comparable right to 
opt out of their dividends and profits being spent on politics 
supporting views and candidates that a shareholder may disagree 
with?
    Dr. Lofaso. Yes, thank you. I agree with that statement. I 
think that what is important here is, as I always talk to my--
tell my students, there are many coercive sources of power in 
our country. And the most coercive, of course, is the 
government. And business is the second-most. Unions are way 
down. They are--obviously, all institutions have some sort of 
coercive power.
    So if we are_if we agree that businesses have enormous 
influence over--and coercion over employees in that they can 
obviously take away your job, et cetera, then it seems to me 
that, if we are going to have this discussion, it is important 
to have the discussion in light of both corporations and 
unions. And so I feel that there must be a different motivation 
by just focusing on unions.
    So I would urge this committee to actually--if they are 
going to do legislation on this_to think about legislation in 
terms of many different types of institutions, but most 
importantly corporations, which are the single most coercive 
source of power outside the government.
    Mr. Scott. Thank you. Mr. Bowman, do you agree with that?
    Mr. Bowman. Actually, I am very interested in hearing--
    Chairman Walberg. Your microphone. Your microphone, please. 
Thank you.
    Mr. Bowman. I am very interested in hearing Dr. Lofaso 
admit that unions are coercive sources of power. It is--I am 
glad--
    Mr. Scott. Well, so are corporations and--
    Mr. Bowman. But corporations offer products that people can 
purchase or not purchase. So I--
    Mr. Scott. So a shareholder who disagrees with the 
political views of the corporation can have their profits 
diverted to the opponent, to people that are actually opposed.
    Let me ask you another question. Do you get to vote on 
union leadership, as a union member?
    Mr. Bowman. I am--withdrew my union membership.
    Mr. Scott. As a--
    Mr. Bowman. I am not offered any--I cannot vote on any 
representation.
    Mr. Scott. Do union members vote on union officers?
    Mr. Bowman. Local offices, not national offices, no. Not on 
our UAW president, no. But on a local level, yes.
    Mr. Scott. So you get--
    Chairman Walberg. The gentleman's time is expired. I now 
recognize myself for my five minutes of questioning.
    Mr. Marculewicz, the U.S. Chamber of Commerce just released 
a very thorough report on worker centers. It notes that under 
previous administrations the Labor Department's Office of Labor 
Management Standards has been hesitant to regulate certain 
worker centers because of outdated guidance on the definition 
of a labor organization under LMRDA. Specifically referenced 
are guidance letters from 2008 and 2013.
    Do you have any thoughts on how the current administration 
should address the matter?
    Mr. Marculewicz. Thank you, Chairman. I want to reference 
some of the remarks of Ranking Member Sablan about these worker 
centers and sort of the definition of these worker centers. 
They have historically been organizations that promoted 
education, engaged with workers on a wide variety of different 
things, but rarely ever engaged directly with employers.
    Back 10 years ago, perhaps, when the Department of Labor 
issued the letter, the 2008 letter, that may have been a set of 
circumstances that existed at the time. But those organizations 
have evolved dramatically in the last 10 years. We have seen 
lots of activity by different types of organizations. They have 
re-emerged. So I would submit, first and foremost, that those 
worker centers have evolved from the historic sort of 
traditional model that was described by Ranking Member Sablan 
into more activist organizations that pursue direct engagement 
with employers.
    Number two, looking at both of those interpretations, they 
were exceedingly narrow readings of the statute, number one. 
And they were also inconsistent with the OLMS guidance that had 
been previously published related to that. And I would submit 
that the OLMS today--assuming we get an administrator to 
implement policy--the OLMS today should take a look at this, 
take a look at these organizations within the context of today 
and the way they have acted over the course of the last several 
years, and make their determination based upon that.
    Chairman Walberg. Thank you.
    Mr. Bowman, you spoke about unions using member dues for 
political purposes or other expenditures not related to 
collective bargaining. In your experience, are most workers 
aware of their right to opt out and exercise what is known as 
their Beck rights?
    Is there something that workers have a straightforward way 
of finding out about this in the workplace?
    Mr. Bowman. I would say, unfortunately, no, that is not the 
case. I worked for the UAW for 13 years until I did my own 
research and found out that there is such a thing as Beck 
rights, that there is an ability for me to be what would be 
called an agency fee payer.
    The problem is you have to resign your union membership 
first, in order to pay agency fees. And that process can become 
very intimidating and full of fear for general workers.
    The UAW used to have a solidarity magazine which was sent 
to everybody's home that, by the way, was cover-to-cover 
political propaganda. But once a year, they would put a little 
box way down in the corner that may have mentioned the fact 
that you can resign your union membership and exercise your 
Beck rights.
    Since Michigan became a right-to-work state, that magazine 
no longer comes to our home. It is just offered online. So I do 
not believe that members have much ability at all to know what 
their rights are, as far as the Beck decision goes.
    Chairman Walberg. Okay, thank you.
    Mr. Jackson, since you and your fellow employees began the 
certification effort, has the union made a compelling case to 
employees as to why it should be kept in place, or is the union 
simply hiding behind procedural delays?
    Mr. Jackson. The union at this point has not sent us any 
correspondence, other than to try to compel us to believe our 
management are dictators, trying to, I believe, draw an 
emotional response so we would continue to support the union. 
But at this point, no, it has been four years since they 
started this process.
    Chairman Walberg. Delay upon delay?
    Mr. Jackson. Delay upon delay. And I believe their goal now 
is to just kill our company because of the timeframe.
    Chairman Walberg. Thank you for your testimony.
    I yield back and now recognize the ranking member, my 
friend, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Mr. Marculewicz. sir, I am not going to argue with you, 
because I will probably find--you represent management side 
clients, and I have never been a member of a union myself, but 
I have spoken to and seen the good that is done for workers. So 
we will agree to disagree.
    But Professor Lofaso, if I may ask, what are the penalties 
for unfair labor practices under the National Labor Relations 
Act? And are they adequate to deter non-compliance? Could you 
please provide some examples?
    Dr. Lofaso. So the remedies for unfair labor practices 
under the National Labor Relations Act are twofold. There are 
cease-and-desist orders, and also any kind of affirmative 
order. So you would get remedies to cease and desist from 
your--whatever action you took, and then the--whatever the 
affirmative order is, depending on which violation it is.
    So, if you are under 8(a), which are the employer unfair 
labor practices--and there is five of them--it would be 
different types of things. Like an 8(a)1 might be a notice 
posting. For an 8(a)3 you might get back pay. For an 8(a)5 you 
might get a bargaining order.
    So the problem is that they are very ineffective. And so, 
many times an employer would make the business judgement that 
it makes more sense to violate the law, in terms of its bottom 
line, than to comply with the law. And so you see that we don't 
have a very good enforcement mechanism. We see this often in 
international law, where you have no teeth. And so the--where 
there is right there needs to be a remedy.
    So it is the policy and practice of--it is the policy in 
the United States Congress--it is the policy of the United 
States to encourage the practice and procedure of collective 
bargaining, which means--and it has been called a fundamental 
right by the United States Supreme Court. Therefore, it should 
have remedies that would--
    Mr. Sablan. Do you have an--
    Dr. Lofaso.--enforce--that are powerful.
    Mr. Sablan. Do you have any examples?
    Dr. Lofaso. Yes.
    Mr. Sablan. Could you share--
    Dr. Lofaso. Yes--
    Mr. Sablan.--one or two--
    Dr. Lofaso. I think that you could have--you could do, like 
treble damages for, if someone is discriminated against, for 
their back pay. Injunctions. Right now the injunctions are 
mandatory for when a union does something, but they are not--
they are permissive for when an employer does it.
    Mr. Sablan. All right.
    Dr. Lofaso. So things like that.
    Mr. Sablan. Okay. So should you--should worker centers be 
classified as labor organizations? And if not, why not?
    Dr. Lofaso. Well, no, because they don't meet the 
definition of a labor organization. The board is fully equipped 
to look at--and is an expert in this, and can actually look and 
see whether they--if there is dealing with--the most important 
part of that definition is whether or not there is a bilateral 
mechanism, whether there is actual dealing with.
    What I heard today is some people complaining that some of 
these so-called worker centers are actually engaging one-on-one 
with employers. Well, if the--where there is actual dealing 
with, that would be a labor organization. Yet every single time 
this has come up, Republican or Democrat, experts have said 
these are not. So that is not really the issue.
    I think what is important is that these are actually--
without using government funds, are actually helping low-income 
workers, and we should be grateful for that.
    Mr. Sablan. Thank you. And so your testimony, Dr. Lofaso, 
also critiques a number of provisions of H.R. 2723, the so-
called Employee Rights Act, such as eliminating voluntary 
recognition, requiring workers to affirmatively opt in to 
support union activities, and granting rights to non-members to 
vote in matters involving the internal governance of a union.
    What is the net effect of these proposals? And you have 45 
minutes--seconds.
    Dr. Lofaso. The net effect is to weaken unions. And we 
don't want to weaken unions. Unions are already weak. And we 
can see--it was your graph, but there is many, many other 
studies that show that, as we strengthen unions, we are 
strengthening the middle class.
    That is not to say that there aren't certain--when there is 
an abuse, we can get rid of that abuse. And of course, there is 
going to be some--you know, there is stories, but there's 
individual stories that they--people feel upset about their 
union. Of course that is going to happen. But we don't make 
legislation just because--on the worst case scenario.
    I would say that what we need to do is strengthen our 
middle class. We need to strengthen the middle class. And one 
way to do that is we can strengthen unions, strengthen a voice 
of employees, which is another theme I am hearing today, and we 
can do that in many, many different ways. And I urge the--you 
guys to work together to figure out a solution that is non-
ideological.
    Mr. Sablan. Thank you, thank you.
    Chairman Walberg. I thank the gentleman. Now I recognize 
the gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson of South Carolina. Thank you, Mr. Chairman. I 
appreciate Congressman Walberg and Congressman Sablan for their 
working together in a bipartisan manner to address the issues 
of worker-management relations. And we want to thank all of our 
witnesses here today.
    I am very grateful that in South Carolina we are a right-
to-work state, leading to South Carolina being the nation's 
leading exporter of cars: BMW, Mercedes, and soon, Volvo. South 
Carolina is also the leading manufacturer and exporter of tires 
in America, with Michelin of France, Bridgestone of Japan, 
Continental of Germany, GT of Singapore, and soon Wanli of 
China.
    Additionally, South Carolina knows the importance of free 
and fair representation elections, with the workers in 
Charleston at Boeing, ably led by manager Joan Robinson-Berry, 
rejecting unionization by a 73-27 vote last year. So we know 
how important the elections are, but the benefits of having 
real representation, and not forced.
    And that is why, Mr. Bowman, your presentation has been so 
meaningful.
    Last year, Congressman Francis Rooney, Congressman Bradley 
Byrne, and myself introduced H.R. 4327, the Current Employee 
Representation Act, which would allow workers to petition for 
union certification election when fewer than 50 percent of 
current employees were members of--during the last election. We 
note that businesses flourish and the economy grows when 
employees are empowered and unions are accountable for those 
who join the workforce.
    The union in your workplace has been there for many years, 
and very few current workers had the opportunity to vote for or 
against the union. Do you view the union as your 
representative, or is it more just another layer of bureaucracy 
in a big corporation?
    Mr. Bowman. It is very interesting. My father migrated to 
Michigan from LaFollette, Tennessee back in the fifties. So did 
his sister and brother. They all ended up working at Ford 
plants, and all forced UAW members. None of them ever had the 
opportunity to vote in a union election. In fact, most of the 
unions were in place, as Chairman Walberg mentioned earlier, 
before they were even born.
    It is very interesting that--why I cannot, in my 21 years, 
be able to vote for a union and be forced under union 
representation, not to be able to represent myself, is a union, 
in my opinion, trying to keep control over the entire 
collective bargaining unit.
    Unions can, under NLRB rules, under former Supreme Court 
cases, choose to do something called a members-only contract. 
But they choose to negotiate to be the exclusive representation 
agent. So yes, unions do that in order to keep the power all to 
themselves, and won't allow me to represent myself, even though 
I have exercised my right-to-work law.
    They will call me names such as ``freerider,'' or 
``freeloader.'' But the--since I am forced to still accept that 
union representation, I, in fact, am a forced rider for the 
union. So absolutely, I agree with your comment.
    Mr. Wilson of South Carolina. Well, and your real-life 
experience means a lot, and is so helpful. So thank you for 
being here.
    Mr. Bowman. Yes.
    Mr. Wilson of South Carolina. Additionally, Mr. Jackson, 
your testimony, you state that labor unions should be held to 
the same standard as elected officials, and should conduct re-
certification elections. You mention the tedious process that 
you go through to bring about a de-certification. Even though 
you collected the required signatures and filed for de-
certification more than two years ago, there has been no vote.
    Is there any sort of deadline as to when you and your 
employees will--fellow employees will have the ability to vote 
on the de-certification effort? Also, do you have an idea on 
how long this entire process will potentially take?
    Mr. Jackson. The time period we were told--all the unfair 
labor practice acts that were filed would have to be gone or 
ruled upon before we would be allowed to vote. And that, every 
time we get close, the union either files new ones, repeats as 
appeals--it is just ongoing at this point, it never ends every 
time we get close.
    Mr. Wilson of South Carolina. And additionally, you 
discussed the blocking charges filed by NLRB by the union 
against your employer, in your case, and how is this being 
addressed? And what is the time period, again, that you 
anticipate?
    Mr. Jackson. I don't believe we have a time period. My 
company is to the point where they will not fight them. It 
costs them money. So they are waiting. They are simply waiting 
for a ruling from the NLRB. And those are not forthcoming, 
either. It is just--the NLRB, I believe, is coddling the union, 
at least our Region 19 is coddling the union. It is--
    Mr. Wilson of South Carolina. Best wishes on your continued 
success creating jobs. Thank you.
    Chairman Walberg. I thank the gentleman. I recognize the 
gentlelady from Oregon, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Mr. Chairman and Ranking 
Member. Thank you to our witnesses for being here.
    Mr. Jackson, I too am from Oregon. However, I grew up in 
Michigan. My grandfather spent many years working at Ford Motor 
Company, both before and after the UAW. And I assure you he--my 
grandfather has long passed away--but I assure you the working 
conditions were much better after the UAW came to Ford Motor 
Company.
    My home state of Oregon has actually been a leader in 
addressing a lot of barriers faced by working families. In 
fact, just recently workers at a Burgerville restaurant in 
Portland voted to unionize, and they established one of the 
first formally-recognized fast food unions in the country, and 
this was done in an election overseen by the NLRB. In fact, 
after the election the company issued a statement saying that 
the employees voted to unionize in the fair and free election 
overseen by the NLRB.
    And strengthening their collective voice and the rights of 
workers, especially in industries like fast food work, we know 
that many full-time workers still struggle to make ends meet. 
Their union advocacy is going to be an important voice and a 
way to help them through advocating for better working 
conditions, fairer wages, and good benefits.
    And I would hope that our Committee would be focused on 
growing the middle class, as we saw from Mr. Sablan's 
information in the opening statement, and that includes making 
sure that workers' voices are protected and preserved in our 
evolving, changing workforce.
    But instead, we are discussing efforts that seem to reduce 
the collective power of workers and limit their ability to have 
a voice on the job. I wish we could go back to the drawing 
board and talk about how we can increase workers' voices.
    And although many of the workers today would join a union 
if given the choice, many fear retaliation for supporting or 
engaging in organizing efforts. And according to a study from 
the Economic Policy Institute, companies threaten to close shop 
in 57 percent of union elections. They fire workers who are 
organizing in 34 percent of elections. They threaten to cut 
wages for workers in 47 percent of elections. And they use one-
on-one supervisory meetings to intimidate and threaten workers 
in 54 percent of elections.
    Our state of Oregon has passed legislation banning the--
those forced meetings. But--nationally. So Ms.--or, excuse me, 
Dr. Lofaso, given the staggering data, are there adequate 
protections in place to deter employees--employers from 
discriminating against or taking retaliatory action against 
employees for engaging in protected activities under the NLRB? 
Because I noted that in Oregon the company said this was a fair 
and free election. What are the most important reforms we need 
to modernize the labor laws to protect those workers who do 
engage in protected activity?
    Dr. Lofaso. Well, the--you are right. The stats are 
staggering, and I would really love to get--that is--I would 
love to get the information on that.
    We know that, given that--you said 50 percent of companies 
will threaten to close plant. This is actually extremely 
intimidating. You think--you heard some of the witnesses say 
they were--they are afraid of certain things, they are afraid 
to say that they are--that they want to leave the union. But 
think about it. Losing your job is much more coercive. And 
that--the reason is because the remedies are bad.
    And so there is no real teeth. And so what we need to do 
is, for these types of--I call it--they are called--I don't 
call them this, but everyone--most people in the business call 
them TIPS. So threats, coercive interrogations, promises that 
are to--basically bribes, solicitation, other things--
surveillance--what you need to do is really focus on those and 
say, okay, we are going to make these a priority and we are 
going to have them have more teeth, better remedies for these 
particular things. And I would definitely focus on those TIPS.
    Ms. Bonamici. Thank you. And as Ranking Member Sablan 
noted, upholding the right of workers to form a union and--as I 
mentioned, we want there to be fair and free elections--is an 
important way to reduce income inequality. We know there are 
still a lot of working families who need help getting ahead. 
Unionized workers have had better access to paid holidays, paid 
sick leave, and retirement benefits. And additionally, the 
presence of a unionized workforce really helps raise the 
standards for wages and working conditions for all workers.
    So we shouldn't have unnecessary delays for workers to join 
or form a union. So Dr. Lofaso, your testimony mentioned how 
the NLRB's 2014 election rule removed many of the unnecessary 
delays that deprive workers of their rights under the National 
Labor Relations Act. And last week I joined many members of 
this committee in submitting a comment to the NLRB making a 
similar argument.
    Can you discuss the implications of long election delays 
for workers who are seeking union representation, and the 
importance of the 2014 rule?
    Dr. Lofaso. Well, I think we heard that, actually, even in 
the testimony today. And indeed, under the new election rules, 
they actually drop blocking charges. So if we were to get rid 
of that, the election rules, it would actually--Mr. Jackson's 
problem would be worse.
    So we want--we don't want to have those delays. It is 
really important that--justice delayed is justice denied. So--
and I have quoted the Magna Carta twice today, but justice 
delayed is justice denied.
    I will say one more thing, is that I would say that it is 
more forced democracy is what we are really doing here, is 
not--and that if there were--I would agree with the secret 
ballot election, if it were against Union A versus Union B. But 
if the choice is between a union and no union--and as you said, 
when there is a union, the working conditions are better.
    Ms. Bonamici. Thank you. I yield back.
    Chairman Walberg. I thank the gentlelady, and I recognize 
the gentleman from the beautiful mountains of Tennessee, Dr. 
Roe.
    Mr. Roe. Thank you, Mr. Chairman. And Molly, thank you for 
the nine-and-a-half years you worked with me on this committee. 
I appreciate all the help you have done, and your service to 
this committee.
    And just--the ranking member made a statement about 
political money being spent by corporations. If you are a 
shareholder, that is a simple solution; just sell the stock, 
and you get rid of it, or you don't buy the product. And I am 
sure Mr. Jackson would love to have that same option, since he 
is two-plus years into trying to get a vote.
    Mr. Chairman, thanks for holding this meeting today, and--
on our nation's out-of-date labor laws, and the need to advance 
common-sense reforms to empower American workers.
    As the son of a union member, I am proud to be part of the 
discussion that is empowering employee protections and choice. 
As recently as 2009 data, the Bureau of Labor Statistics and 
the National Labor Relations Board indicates about seven 
percent of unionized employees have ever voted for the union in 
their workplace.
    They deserve more--employees deserve more of a voice in 
their representation, and the ability to hold their leaders 
accountable. We should be advancing legislation such as H.R. 
2723, Employee Rights Act, which contains common-sense 
protections, including secret ballot elections, giving the 
employees a voice on their union dues if they are used for 
political spending, and the ability to decide representation, 
free from threats.
    I put on a uniform and left this country over 40-something 
years ago in Southeast Asia to give every single person in this 
country the right to a secret ballot. Every member up here was 
elected by a secret ballot. And to show you how secret it is, 
my wife claims she votes for me, but I don't know that for a 
fact, because it is a secret ballot.
    And I find it offensive when someone will stand up and say 
that these members right here, these men right here--and women 
-- don't have a right to vote in a secret ballot. That is so 
American, it is what separates us from every other second-rate 
country in the world, is a secret ballot. And I think that is 
sacrosanct.
    And Mr. Bowman, I will start with you. Full disclosure, I 
own a Ford pickup. So the--it is a bedrock, and I would just 
like to have you comment again on that.
    Mr. Bowman. Well, I also own a Ford F150. And as I said, my 
father came from LaFollette, Tennessee, so I love your state.
    What specifically--subject do you want me to speak on?
    Mr. Roe. Just the secret ballot protections that you--
    Mr. Bowman. Again, I think it is interesting. It is 
outrageous and embarrassing that any worker has to fight for a 
secret-ballot election.
    As you had said in your comments, the Employee Rights Act 
would guarantee that for all workers. There is no situation 
that I can think of where a secret ballot election should be 
removed from any worker in any situation in any union 
organizing drive, period.
    There can be intimidation on both sides. There can be 
intimidation on the union-paid--on the paid union organizers 
side, there can be intimidation on the employer side. Nobody 
wants to go into a voting booth and have somebody know how they 
voted. That is an anathema to being an American.
    I think workers being told right from the beginning that 
you are going to have a secret ballot election, nobody is going 
to know how you vote--in fact, you can walk out of there and 
tell one person you voted one way, tell another person you 
voted another way. It doesn't matter because your vote, your 
secret ballot vote, is what actually matters and what 
ultimately counts on that union organizing drive.
    So that is why I definitely support the Employee Rights 
Act.
    Mr. Roe. I agree with you. The last time--first time I got 
elected I found that at the election 100 percent of the people 
in my district voted for me--at least they--what they said, 
everybody did.
    [Laughter.]
    Mr. Bowman. Sure.
    Mr. Roe. Would you agree, Mr. Bowman, that if a union 
brings value to the workplace, that they have nothing to fear 
from an election?
    Mr. Bowman. They have nothing to fear. And personally, 
myself, I am pro-union, but in the context of what unions were 
created to do--unfortunately, not what they have become.
    So I don't think there is anybody in this table--and I 
certainly don't want to speak for anyone--that wants to ban 
unions. We just believe that unions need reform to bring them 
into the 21st century. And compulsion at its core, and forcing 
members in a card check campaign is definitely not something 
that I believe belongs in the 21st century.
    Mr. Roe. Mr. Jackson, very quickly. And Chairwoman Foxx 
scares me too, so you are okay with your--
    [Laughter.]
    Mr. Roe. You mentioned that you and your employees are 
rarely in the same place, and was it difficult for you to 
collect the signatures for your de-certification process (sic). 
And I know you have mentioned several times about why you think 
it has taken so long, but, if you could, just hit that point 
quickly.
    Mr. Jackson. Yes. Thank you for your service, Mr. Roe.
    For us, hand-carrying the de-certification petition with us 
everywhere we go is extremely tedious, very time-consuming. 
Given that, once it is filed, why has that taken so long? Why 
are they allowed to hold this up?
    You know, when we voted for the union, that election 
happened like that. To undo that, we are still waiting. How 
come?
    Mr. Roe. I yield back, Mr. Chairman. Thank you.
    Chairman Walberg. I thank the gentleman. And I was just 
notified by Chairwoman Foxx that she would like me to 
disassociate myself from your comments.
    [Laughter.]
    Chairman Walberg. I now recognize the gentleman from New 
Jersey, Harley rider and good guy, Mr. Norcross.
    Mr. Norcross. Thank you, Chairman. And I thank the Ranking 
Member for putting this Committee today.
    And I have to agree with Dr. Roe. The mountains of 
Tennessee really are beautiful, and they produce many, many 
good people, including himself and my mother.
    So Mr. Bowman, you said that you were employed by the UAW 
for 13 years. When did they hire you?
    Mr. Bowman. I am not employed by the UAW. I am employed--
    Mr. Norcross. No, you said--
    Mr. Bowman.--by Ford Motor Company.
    Mr. Norcross. Well, that is--wait. So you did not work at 
all or ever for the UAW.
    Mr. Bowman. No, I never have.
    Mr. Norcross. Okay, thank you. Have you ever run for public 
office?
    Mr. Bowman. I did in 2014.
    Mr. Norcross. Oh, so you know what it is like to win or 
lose an election.
    Mr. Bowman. Based on secret ballot elections, yes.
    Mr. Norcross. So you know how and whether it is like to win 
an election or lose. What--did you win or lose? Just--
    Mr. Bowman. I lost the election.
    Mr. Norcross. Okay, sorry to hear that. Did you disclose 
all the money that was contributed to you?
    Mr. Bowman. Yes, you have to. I--
    Mr. Norcross. Oh, but the dark money, or what they are 
referring to by third parties, did you disclose that?
    Mr. Bowman. Well, since I ran--
    Mr. Norcross. Did you disclose that?
    Mr. Bowman. Absolutely. Since I ran in--
    Mr. Norcross. Hang on, I am asking a question.
    Mr. Bowman. Okay, okay.
    Mr. Norcross. Did you disclose money that was used on 
behalf of your campaign, all that money? Yes or no.
    Mr. Bowman. Yes.
    Mr. Norcross. Did your opponent?
    Mr. Bowman. That I have no idea.
    Mr. Norcross. You don't know if he filed any of the 
disclosures?
    Mr. Bowman. No. My opponent is in this House--
    Mr. Norcross. Well, thank you. I appreciate it. Please.
    So both sides, by law, are supposed to disclose. Correct?
    Mr. Bowman. True.
    Mr. Norcross. So let me switch just a little bit.
    Dr. Lofaso, when there is a campaign going on, the union 
obviously files their LM reports and many others they have to 
disclose. Is the same true for the employer side, that they 
have to disclose everything they use in fighting the election?
    Mr. Bowman. I--
    Dr. Lofaso. No.
    Mr. Norcross. I am asking her.
    Mr. Bowman. Oh, you are asking her.
    Mr. Norcross. So when you run for public office, you have 
to disclose both sides, but if it is a union election, only one 
side has to disclose. Is that accurate?
    Dr. Lofaso. Correct.
    Mr. Norcross. So, when there is a vacancy in the U.S. 
Senate, is there an appointment or an election that takes 
place, do you know?
    Dr. Lofaso. I believe it is usually an appointment, and 
then later on an election.
    Mr. Norcross. Oh. So they can be appointed without any 
election?
    Dr. Lofaso. Correct.
    Mr. Norcross. Okay, just wondering. That seems to happen a 
couple times.
    Mr.--hopefully I get this right--Marculewicz, if there is a 
language interpreter that is used by an employee who doesn't 
speak English with their employer, are they considered part of 
a union?
    Mr. Marculewicz. If there is a language interpreter?
    Mr. Norcross. Yes.
    Mr. Marculewicz. That is used--
    Mr. Norcross. By an employee to speak to their employer.
    Mr. Marculewicz.--by an employee to speak with their 
employer?
    Mr. Norcross. Are they covered? Is that--an interpreter?
    Mr. Marculewicz. Covered by what?
    Mr. Norcross. The NLRA.
    Mr. Marculewicz. I--if they are an employee they would be, 
yes.
    Mr. Norcross. No. If an employee uses a language 
interpreter that might come from a worker center to help them 
communicate with their employer.
    Mr. Marculewicz. If they--if the--I am still not quite 
following your question.
    Mr. Norcross. If an employee who does not speak English 
wants to speak to their employer and uses a language 
interpreter that happened to come from a worker center, would 
they be covered under the NLRB?
    Mr. Marculewicz. Well, under certain circumstances, they 
might. But if they were just in their capacity as an 
interpreter, they wouldn't serve as a labor organization.
    Mr. Norcross. If they came from a worker center?
    Mr. Marculewicz. Including if they came from a worker 
center, Congressman.
    Mr. Norcross. Okay. So if there is a language interpreter 
that works in the court system for the same reason, would they 
be covered under the NLRB?
    Mr. Marculewicz. In the court system?
    Mr. Norcross. Yes, criminal justice system.
    Mr. Marculewicz. Actually--
    Mr. Norcross. It happens--
    Mr. Marculewicz. Yes, they would be covered. If they were 
private-sector employees, they would be covered under the 
National Labor Relations Act, because they could organize and 
form a union.
    Mr. Norcross. I am not asking that. If they are working as 
a language interpreter for a person who does not speak English 
in our court system, and they came from a worker center, should 
they be covered by the NLRB?
    Mr. Marculewicz. They would not be acting as a labor 
organization in that capacity.
    Mr. Norcross. So is that answer yes or no?
    Mr. Marculewicz. The question doesn't lend itself to a yes-
or-no answer, because an interpreter who is in the private 
sector could be covered--working for a worker center, that 
interpreter and other interpreters could form their own union 
as employees of that worker center. And they are covered under 
the--
    Mr. Norcross. Because they are working in their capacity as 
an interpreter for an individual, does that automatically 
qualify? I think your answer was no, because--
    Mr. Marculewicz. I don't think it would, correct.
    Mr. Norcross. Okay. We are in the same place. So why 
should, in the event that they came from a worker center, all 
of a sudden, that switch their capacity? Because many of these 
worker centers, they use language interpreters each and every 
day.
    So I see my time has expired. I yield back. Thank you.
    Chairman Walberg. I thank the gentleman. I recognize the 
gentleman and a master from Florida, Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman. I would like to have 
the U.S. Chamber's report on worker centers submitted into the 
record, if I might.
    Chairman Walberg. Without objection, hearing none, it will 
be.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Rooney. Thank you. The SEIU has spent $90 million on 
worker centers. The UFCW has dumped millions of dollars into a 
retail worker center with nothing to show for it. The Coalition 
of Immokalee Workers regularly pickets, boycotts, and raises 
money, and even engages in secondary boycotts, which, as we 
know, are illegal under the NLRA. So how are they not a union? 
They walk and quack, but they are not a duck?
    I brought up these abusive and dishonest tactics of worker 
centers to Secretary Acosta, and will continue to work with him 
on this issue. So I would like to ask Mr. Marculewicz, what is 
the best way to ensure that the LMRDA is appropriately 
enforced, and should Congress amend the LMRDA to include these 
obviously union-like worker centers?
    Mr. Marculewicz. Thank you, Congressman. I would say 
twofold. The most important piece is to get an administrator 
into the OLMS to enforce the laws and regulations that we 
currently have.
    The law--there are probably many ways that the LMRDA could 
be amended to modify different aspects of things and to further 
enhance the democratic aspects of labor organizations. But 
frankly, given the context of what we are dealing with today, 
enforcing the existing laws as they were written by Congress 
and as they were intended by Congress would go a very long way 
to dealing with organizations such as the ones that you 
mentioned.
    Mr. Rooney. Thank you.
    Mr. Bowman, thank you for being here. Those are compelling 
stories, yours and Mr. Jackson's, both.
    Today's factory is not the same one that your father walked 
into in the fifties. Automation and a lot of things have 
changed. Are you aware that, according to the UAW constitution, 
article 31, you could and probably would be subject to a fine 
for trying to de-certify the existing union?
    Mr. Bowman. I am very well aware of union fines, and what 
can happen for a individual member to voice their opinion, 
voice their First Amendment right of free speech. So yes, I am 
very well aware of that possibility.
    I have not started an organizing drive to de-certify. But 
in many cases, just speaking of it and talking about it can 
make me subject to fines from the UAW.
    However, I resigned my union membership in 2015, so I am no 
longer a member of the UAW.
    Mr. Rooney. So now you got your First Amendment rights 
back.
    Mr. Bowman. Some of them. I am still forced, under threat 
of being fired, to accept union representation that I may not 
want, because the union negotiated freely to be the exclusive 
representation agent of all employees in the collective 
bargaining agreement. So I am still forced to be represented by 
a union that I do not like.
    Mr. Rooney. So you are not in a right-to-work state?
    Mr. Bowman. I am in a right-to-work state. I don't pay 
union dues, and I am not--no longer a member of the UAW. But I 
am still forced to accept their representation--
    Mr. Rooney. I got it, okay.
    Mr. Bowman.--on their contract, yes.
    Mr. Rooney. So going back to the previous question, do you 
think that employees deserve to have First Amendment rights if 
they are in a union?
    Mr. Bowman. Well, I think that question is almost obvious 
in its answer. Of course I do. It is why I support the Employee 
Rights Act, which goes, I think, a long way into ensuring that 
union workers' rights, freedoms, and protections continue and 
are protected in the long run, and it also gives unions tools 
to effectively go forward in the 21st century, instead of 
living in a 1930s business model. So yes, absolutely.
    Mr. Rooney. Thank you very much. I yield.
    Mr. Bowman. Thank you.
    Chairman Walberg. I thank the gentleman. I recognize the 
gentlelady from New Hampshire, Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you very much.
    So, Mr. Bowman, I have read your testimony and you work in 
a factory. So did I. I worked in a non-union factory and you 
worked in a union factory. And you said that your father worked 
in that factory.
    Mr. Bowman. Not that factory, but in a Ford factory, yes.
    Ms. Shea-Porter. Ford, right. And that he retired in the 
early nineties.
    Mr. Bowman. Yes.
    Ms. Shea-Porter. Did he retire with a pension?
    Mr. Bowman. He retired with a pension, yes.
    Ms. Shea-Porter. Oh. Well, that is great, because my non-
union factory did not offer that.
    Why did you go to Ford Motor? Were there any non-union 
factories that you might have felt more comfortable in?
    Mr. Bowman. Ford Motor Company is--it is almost genetically 
built into my family. I have--
    Ms. Shea-Porter. But there are other factories.
    Mr. Bowman.--family members all over the place in Ford 
factories. It is--
    Ms. Shea-Porter. Okay, but you chose a union factory. And I 
just want to ask--
    Mr. Bowman. I chose Ford Motor Company, not necessarily 
because it was a union factory.
    Ms. Shea-Porter. Was it because of better pay?
    Mr. Bowman. The--when I went there, yes, it was better pay 
than what I was getting.
    Ms. Shea-Porter. Did you have better benefits, like--
    Mr. Bowman. Not benefits, but better pay, yes.
    Ms. Shea-Porter. But did you have sick pay, and the 
things--
    Mr. Bowman. I had sick pay and vacation time all before 
that.
    Ms. Shea-Porter. You know, you are so fortunate, because I 
didn't. And what else did that unionized factory give you, you 
think, that maybe I didn't get?
    Mr. Bowman. I can't guess, because I don't know the 
situation, but--
    Ms. Shea-Porter. Let me help.
    Mr. Bowman. Unions do negotiate benefits and--
    Ms. Shea-Porter. So--
    Mr. Bowman.--I have no problem with unions collective 
bargaining.
    Ms. Shea-Porter. Okay. So better pay, better benefits, 
better retirement, and you went in there by choice. And then 
you said that you don't actually have to pay for what unions 
bring.
    But just to give you an idea, since I know that you ran for 
office--and I have a couple of questions about that--did the 
United Auto Workers ever prohibit you from donating to a 
candidate of your choice, or did they ever prevent you from 
exercising your right to run for office?
    Mr. Bowman. No, but one thing the UAW did do is provide our 
union hall to gather ballot petition signatures for my 
opponent.
    Ms. Shea-Porter. Well, let me just tell you that I know, 
though, something about that, being in a swing district. I have 
had the NRA and every other group against me, too. It is the 
nature of the business, and I am sure that you understand that.
    But this is why I think we need a union. A former colleague 
of mine, who is now sitting in the White House, met with 1,300 
bankers and lobbyists recently and said--and I quote--``If you 
are a lobbyist who never gave us money, I didn't talk to you. 
If you are a lobbyist who gave us money, I might talk to you.''
    So if we don't have the ability to give the middle class a 
tool to speak up and be heard in that kind of noise there, then 
what do you suggest we do?
    Mr. Bowman. Well, again, I support the Employee Rights Act, 
which gives additional workers additional rights, freedoms, and 
protections. How that can hurt the middle class is beyond me in 
logic. So I can't comment beyond what I am saying here.
    Ms. Shea-Porter. Okay. So I assume that, like everybody 
else, you studied history in school.
    Mr. Bowman. Sure.
    Ms. Shea-Porter. Right. So you know a lot about how the 
labor movement was born.
    Mr. Bowman. How--what? I am sorry?
    Ms. Shea-Porter. How the labor movement was born.
    Mr. Bowman. Sure.
    Ms. Shea-Porter. You know about the march of the children, 
right, trying to not work seven days.
    So when you are saying--I don't think you do, but that is 
okay. There is a lot that happened to lead to a labor movement, 
and people gave their lives for it, and it wasn't because they 
just felt like this would be a pretty cool thing to do. It was 
born out of a need, which I believe still exists.
    And I will tell you that when I worked in a factory, I 
remember a pregnant woman fainting on the line. They had sped 
up the line, there were many chemicals, it was a--we made auto 
parts, so--
    Mr. Bowman. Okay, sure.
    Ms. Shea-Porter. You know the smell of that, right? And she 
fainted. And so they came over and they said to her, ``Go to 
the nurse, and on the way stop by and pick up your check, you 
are out of here.'' No union. No way to go protect yourself and 
your paycheck. Nobody to stand up and say, you know, when you 
are sick, you don't get fired right on the spot when you have 
been doing your job. That is why they need a union, and that is 
why people need an opportunity to come together to create a 
union.
    And I agree that we should never see coercion on any side 
at all, although I would argue that my former colleague used a 
form of coercion on those people, those lobbyists and those 
bankers, saying, ``If you want to be heard you better give 
money.''
    I don't think--you wouldn't--you don't think that is good, 
right?
    Mr. Bowman. Well, again--
    Ms. Shea-Porter. Well, do you think that is good or not, 
for them to--
    Mr. Bowman. I am not against unions in any way, shape, or 
form. I think unions should exist, and that is why we are here, 
to make sure that we update them for the 21st century and 
beyond. It is just the fact that the--
    Ms. Shea-Porter. Actually, I--
    Mr. Bowman.--the Wagner Act and--is 83 years old, and--
    Ms. Shea-Porter. Okay, so we won't argue that. But I will 
just say that if you are not against union organizing, you sure 
have fooled us.
    Thank you, and I yield back.
    Chairman Walberg. I thank the gentlelady. Now I recognize 
the gentleman from Georgia, Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman, and I thank you for 
this hearing. Thank you for our panel.
    And Mr. Bowman. I was looking at the--your written 
statements that you said that--let's see, I believe that the 
National Institute for Labor Relations Research reports in its 
2016 election cycle it spent over 1.7 billion in politics. Can 
you explain how that was done?
    Mr. Bowman. No, I can't explain how--specifically how every 
union spent their money on politics. It is just a total that 
the NILRR, the National Institute of Labor Relations Research, 
compiled from government reports that the unions supplied at 
the end of their year, when they have to report.
    Mr. Allen. But I also read where--that the unions can 
deduct this from your pay to make--
    Mr. Bowman. In many political spendings, absolutely. They 
can--they don't need prior approval from any union members or 
anybody paying dues to--how they can--how they are supposed to 
use their dues in the long run.
    In other words, if a union member is upset with the way 
their union dues are used to support a political or social 
cause, they then have to resign their union membership, first 
of all, which can be very intimidating and full of fear--and 
again, that is something I have personal experience with--and 
then become what is called an agency fee payer, which is 
supposed to be a reflection of the true cost of what the union 
has to represent you in collective bargaining and grievance 
handling, and so forth.
    But the amount of money that unions spend on politics--for 
instance, donations to groups like Planned Parenthood--they do 
not need to get prior approval from a union worker before they 
do that. My thought is I think all union members should receive 
the opt in permission from the beginning to say, yes, I would 
like some of my union dues to go towards political causes and 
social causes, instead of having to do that often burdensome 
opt-out--
    Mr. Allen. Even if it conflicts with your faith or your 
values?
    Mr. Bowman. Absolutely. If it conflicts with anything. You 
know, you can make it a faith issue, you can make it just 
somebody who dislikes another organization, or for any reason 
they do not want to support a political or social cause that 
the union is spending money on. They should have the ability to 
opt in, instead of having to do that opt out, where their money 
is used first and then have to opt out for it afterwards. The 
Employee Rights Act provides that provision, where employees 
are given the opportunity to opt in for political and social 
spending from the beginning.
    Mr. Allen. All right. Quickly, we saw the chart of 
declining union membership. And of course, there are various 
arguments why that is occurring. It sounds like, from Mr. 
Bowman and Mr. Jackson, your testimony, that you got a real 
problem with the way the thing is organized and, obviously, 
with your leadership.
    I would like a comment from both of you. I mean don't you 
elect your leadership in the union? And that leadership is 
supposed to represent you and your interests. And then, if you 
voice your interest, they are supposed to listen and respond. 
How does it work, say, with United Auto Workers?
    Mr. Bowman. Well, for the UAW we do not elect our national-
level executives.
    Mr. Allen. How do they get that authority?
    Mr. Bowman. They get that authority through a convention, 
where representatives from each plant come and then represent 
and vote for union leadership. It usually comes from something 
called the Reuther caucus, which is already pretty much a pre-
programmed idea of who is going to be president, even before 
the vote gets there.
    Mr. Allen. Okay.
    Mr. Bowman. So that is how it happens in the UAW.
    Mr. Allen. So do you think it would be more popular to 
change that to a--I mean, you know, an election process like 
the way we are elected, where you actually go out and you say, 
``Hey, I got new ideas, and I think I can help our workers, 
and''--
    Mr. Bowman. Well, I--yes. For union executives on the 
national level--for union--or for UAW executives, I think a 
secret ballot election, again, should come to all workers--
    Mr. Allen. Right.
    Mr. Bowman.--and all the plants.
    Mr. Allen. You got 12 seconds, Mr. Jackson. How about your 
situation?
    Mr. Jackson. We voted for representation and now we are 
trying to undo that. We didn't actually vote for anyone 
specifically, it was as a collective group.
    Mr. Allen. I got you. Okay. All right.
    Thank you, I yield back.
    Chairman Walberg. I thank the gentleman. I recognize the 
gentleman from Connecticut, Mr. Courtney.
    Mr. Courtney. Great, thank you, Mr. Chairman, and thank you 
to the witnesses for being here today.
    I want to follow up on a point that Mr. Scott raised today 
regarding what really is a crisis at the NLRB, which is that we 
have a newly confirmed member who, again, was sanctioned by not 
just the inspector general, but the ethics office, in terms of 
participation in the Browning-Ferris decision.
    And again, this, I think, screams out for a hearing by this 
subcommittee, given the fact that not only was these findings 
made, this is not a settled matter. You know, Mr. Emanuel's 
lawyer has communicated to Congress that he basically rejects 
the opinions of the ethics office and the inspector general, 
and continues to insist that he has the right to vote on 
matters that he handled, or his law firm handled, in--prior to 
his holding office.
    This is like having a member of Congress saying that they 
willfully refuse to accept a decision by the ethics office. I 
served on the Ethics Committee for two years, and we have 
various sanctions, in terms--and it was bipartisan. In fact, it 
is totally non-partisan, there is no majority on that 
committee.
    And to allow a state of affairs to continue to exist at the 
National Labor Relations Board--again, Dr. Lofaso, having been, 
you know, somebody who was proximate to the way the board 
operates, I mean, this is a real problem, in terms of just the 
functioning of the board.
    Dr. Lofaso. Yes. I want to limit my comments to saying that 
I don't know about his specific situation. And so I am going to 
say it hypothetically. But let's say everything you said is 
absolutely an accurate description of what is going on.
    The problem is that the people who will be--inspector 
general and the ethics officers, these are people that are--and 
people who work on these things are generally career employees 
who are not--they are not trying to be political. If anything, 
these--what they are trying to do is maintain the integrity of 
government, which is one of the most important things, to keep 
our faith in government, and the public faith in government.
    So it is very important that what we understand is that if 
you have an ethics decision that is disfavorable to an employee 
of that agency, you have to understand--is that in general they 
are looking for any way they can to say this was ethical. And 
so I would say that there is a lot of weight behind that.
    And that--for someone to then say I am not going to listen 
to that, I think creates, like, the equivalent of a 
constitutional crisis, but within the agency. So it is 
something I think that we have to take really seriously and try 
to understand.
    Now, of course, if there were really--if there really is 
something wrong, where the ethics people are going wild and 
saying this is wrong, then also you should get to know that, 
too. So a hearing would actually--could vindicate him.
    Mr. Courtney. Right. And again, a hearing, which, you know, 
I think is obvious for this subcommittee to hold, is really--as 
I said, it sort of screams out for it.
    As someone--I practiced law for 27 years before having the 
honor of representing Connecticut's second district, you know, 
one of the things we did in our law firm, any time a new client 
was coming in is you kind of just ran the traps, in terms of 
making sure that there was no conflicts.
    I mean this stems beyond, you know, serving in a public 
agency like NLRB. I mean it is really sort of boilerplate rules 
that attorneys and--have to follow, as a matter of course, 
where you would be subject to ethics sanctions by the state 
grievance committee.
    Dr. Lofaso. Or the--
    Mr. Courtney. Also, Doctor, if I could just follow up real 
quick on it, we have heard a lot about card check, and somehow 
that this is sort of, you know, ramming over people's rights.
    Again, this has been part of the law since 1935. The 
Supreme Court has actually had a number of cases where, you 
know, individuals like Mr. Bowman have challenged, you know, 
whether or not this somehow usurps people's rights by providing 
an avenue of recognition that--you know, through the card check 
process. Every single instance the Supreme Court has upheld 
that provision of the law. Earl Warren, an appointee of Dwight 
Eisenhower, wrote one of those decisions.
    Again, just real quick, I mean, we are not talking about 
something that is really, you know, ever challenged as somehow 
depriving individual workers of their rights. Is that correct?
    Dr. Lofaso. That is correct. It is well developed in the 
jurisprudence. Gissel is the main Supreme Court case from 1969.
    Chairman Walberg. I thank the gentleman.
    I would like to again thank our witnesses for the time and 
attention that you have taken to be here, to travel here, to 
prepare your remarks, and to respond to our questions and 
concerns. I hope it has been a valuable experience for you, as 
I believe it has been for us.
    This isn't a simple issue. We understood that when we 
established this hearing. We understand that this hearing isn't 
the end-all, but we thank you for being here and helping us.
    Now, I am delighted to recognize my Ranking Member for any 
closing comments he might have.
    Mr. Sablan. Yes, thank you very much, Mr. Chairman. We 
obviously have different views on how to modernize labor law, 
but I appreciate very much your holding this hearing this 
morning, and I appreciate the time and effort put in by all of 
the witnesses. Thank you.
    We must do better by our workers. They are working harder 
and harder for less and less, and their hard-fought rights and 
protections in their workplaces are being chipped away. We need 
to protect their right to join a union, have that union 
collectively bargain on their behalf, and enjoy a safe 
workplace, free of unfair labor practices.
    And we need to fix the National Labor Relations Board. This 
is supposed to be an independent agency protecting workers' 
rights and promoting collective bargaining. My colleagues and I 
have been performing our oversight due diligence, writing 
several letters there. The agency has to function free from the 
reported chaos and infighting, and function fairly to carry out 
their mission.
    I must, on a personal observation, note my agreement with--
some agreement with Mr. Bowman. He noted that he doesn't have a 
say in who is the president of, say, UAW. And I also--because I 
also say that I would like to think that our nation should 
come--has come to a point where the person who gets the most 
vote in a presidential election should be our president. And we 
just saw an experience where a person who wasn't--our president 
is selected by the electoral college, and not by voters 
directly. So maybe Mr. Bowman and I have some kind of agreement 
on the concept.
    But Mr. Chairman, thank you very much. You have always been 
very kind and--of your time. And I yield the balance of my 
time.
    Chairman Walberg. I thank the gentleman. And I am not going 
to take on the electoral college. We will leave that for some 
other committee.
    Mr. Sablan. Yes, sir.
    Chairman Walberg. I kind of like it, and especially living 
in a rural area, I appreciate having a say.
    But I appreciate having a say today, and what each of our 
panelists have brought to the table. And the discussion we have 
had as a subcommittee, it is important to have.
    I am delighted that back in Michigan we are seeing ``help 
wanted,'' ``hiring now'' signs all over the place. It almost 
gives the feeling that it is an employees' market right now. 
And being that is the case, we also see a lot of attention from 
employers on what it will take to provide incentive for 
employers to come and apply for those jobs (sic).
    Our challenge is to make sure that they are trained and 
ready for those jobs, as well. And so, for us to have a setting 
in place where employers and employees feel like they have a 
seat at the table and can experience all that is best that this 
great country has allowed to happen, and been an example for 
the rest of the world is so important right now.
    I am thankful that when--and my good friend flattered me by 
saying that I was born in 1973. You knew that wasn't true. But 
in 1969, when I graduated from high school and went to work at 
U.S. Steel South Works, south side of Chicago, where one time 
my father had worked and helped organize unions, steel workers, 
and did it for the purposes to make sure that he would come 
home at night safe and sound with all of his faculties, all of 
his body parts, that there would be a level playing field for 
benefits, enhancements, good pay for good day's work. I was 
glad that a lot of those things had taken place back in the 
forties and fifties, when my dad was there, and continued on as 
a union worker for most of his working career, until the latter 
days of his working career.
    It made it a better working place for me at U.S. Steel, as 
a repairman's helper, as a third helper on the furnace, as a 
common laborer in the kitchen area, and as a--and please report 
this accurately--as a hooker in the scrap yard. Make that 
clear. And I appreciate the fact that there were unions that 
were doing that.
    But I also know that times have changed, and we have laws 
in place because of some of those efforts. We have workplace 
requirements because of those efforts. We also have plenty of 
examples that my dad would tell if he were alive today of how 
he felt that the union went too far, and caused problems for a 
workplace and a continuation of work place.
    And that is where I think we have to have that give-and-
take and the ability for employees to determine their destiny, 
as well, and to vote whether they want to be part of a union or 
not.
    My son is helping organize a union right now at a major 
communications organization because of some significant 
problems that developed in the changeover of ownership in this 
entity. And as I have talked with him, he said, ``Dad, I never 
thought I would be a union man.''
    And I said, ``Well, if it is for the right purpose, that is 
great. But make sure you do it for the right purpose, and don't 
go beyond what is necessary to foster a workplace that works 
for all, and to have an employment--place of employment that 
continues on, as well.''
    So that is why we had the reason for this hearing. And I 
think there are discussions that need to continue. But in this 
country, we certainly should not feel any compulsion to take 
away rights of individuals to make decisions for themselves. 
And I think that is why we want to see it happen.
    So we will continue to look at this. We wish that we had 
better prospects in the Senate to do the same thing. But it is 
our purpose here in the House to make sure we look at all 
sides, and we make sure that Americans and America is served 
well. Having nothing else to be heard before this subcommittee, 
it is adjourned.
    [Whereupon, at 11:24 a.m., the Subcommittee was adjourned.]

                                 <all>
</pre></body></html>
